NRC: OIG/96A-01 - Survey of the Nuclear Regulatory Commission's Information Management Needs for Current and Future Licensing Demands for Disposal of High-Level Nuclear Waste
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1996 > OIG/96A-01
OIG/96A-01 - Survey of the Nuclear Regulatory Commission's Information Management Needs for Current and Future Licensing Demands for Disposal of High-Level Nuclear Waste
Contents
Overview
Report Synopsis
Introduction
Progress in Developing the LSS and Implementing Prior OIG Recommendations
Budgetary Constraints and Legislative Changes That May Affect the LSS
The Licensing Support System Advisory Review Panel
Conclusions
Objectives, Scope, and Methodology
U.S. NRC Functional Organization Chart
Major Contributors to this Report
Glossary:  Office of the Inspector General Products
Overview
Office of The Inspector General United States Nuclear Regulatory Commission Washington, DC  20555 February 12, 1996
Memorandum to:
James M. Taylor Executive Director for Operations
From:
Thomas J. Barchi  /s/ Assistant Inspector General for Audits
Subject:
Survey of The Nuclear Regulatory Commission's Information Management Needs For Current and Future Licensing Demands For Disposal of High-Level Nuclear Waste
Attached is the Office of the Inspector General's (OIG) report entitled Survey of the Nuclear Regulatory Commission's Information Management Needs for Current and Future Licensing Demands for Disposal of High-Level Nuclear Waste.  This report reflects the results of a follow-up survey to our March 1995 audit report entitled NRC Needs to Provide Strong Direction for the Licensing Support System.
On February 8, 1996, OIG held an exit conference and briefed agency managers on our findings.  Since this report contains no recommendations, we did not provide a draft for agency comment.
Attachment:
As stated
cc:
H. Thompson, EDO
J. Milhoan, EDO
K. Cyr, OGC
J. Hoyle, SECY
D. Rathbun, OCA
J. Blaha, EDO
R. Scroggins, OC
P. Norry, ADM
G. Cranford, IRM
R. Bangart, OSP
W. Russell, NRR
E. Jordan, AEOD
D. Morrison, RES
C. Paperiello, NMSS
J. Funches, ICC
W. Beecher, OPA
T. Martin, RI
S. Ebneter, RII
H. Miller, RIII
L. Callan, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
OPA-RIV: Walnut Creek
Report Synopsis
We have completed a follow-up survey to our March 1995 audit report entitled NRC Needs to Provide Strong Direction for the Licensing Support System (LSS).  In response to that report, the Executive Director for Operations appointed a Senior Management Team (SMT) to re-evaluate the purpose and need for the LSS and to address the issues raised by our report.  The SMT recommended continued support for the LSS because of the benefits it would provide.  We endorse the SMT's support for the LSS concept.
In May 1995, the Commission reaffirmed its commitment to a system that satisfies the original purpose of the LSS.  The Commission encouraged the staff to take a stronger leadership role in fundamental issues involving the LSS.  The Commission also asked to be informed of the approach for capturing and retrieving decisions related to key licensing issues, including their technical and logical bases.  We agree with the Commission's position.  In a January 30, 1996, status report, the Executive Director for Operations advised the Commission that the SMT will develop an action plan addressing their concerns.
We also recognize the important role the Licensing Support System Advisory
Review Panel (ARP) plays in LSS development and implementation and believe that
NRC should maintain the ARP relationship.
Introduction
We have completed a follow-up survey to our March 1995 audit report entitled
NRC Needs to Provide Strong Direction for the Licensing Support System(1)
(LSS). The purpose of our follow-up was to (1) assess progress made toward developing
the LSS and implementing prior Office of the Inspector General (OIG) recommendations
and (2) evaluate programmatic impacts that might affect the LSS as a result
of budget constraints and legislation being considered by Congress. This report
contains the results of our work.
Progress in Developing The LSS and Implementing Prior OIG Recommendations
In response to our earlier report, the Executive Director for Operations appointed a Senior Management Team (SMT) to re-evaluate the purpose and need for the LSS and to address the issues raised by our report.  On April 27, 1995, OIG staff and members of the SMT briefed the Commission on the status of the LSS.  On May 9, 1995, in response to that briefing, the Commission reaffirmed its commitment to a system that satisfies the original purpose of the LSS.  The Commission also encouraged the staff to "take a stronger leadership role in attempting to resolve the fundamental issues involving the roles of DOE and NRC and with respect to the LSS and the manner in which it will be funded."  Additionally, the Commission informed the SMT that the Commission should "be informed on the approach for: (1) applying the topical guidelines to ensure relevant documents are identified and (2) capturing the decision process so that DOE and NRC decisions related to key licensing issues, including their technical and logical bases, can be retrieved."
In June 1995, the SMT issued a report (SECY-95-153) on its findings and recommended continued support for the LSS because of the benefits it would provide.  The SMT's analysis was based on the assumptions that there will be no changes in the U.S. Department of Energy's (DOE) high-level waste (HLW) repository program and that DOE would proceed with its new program approach.  The SMT report does not, however, address the current budgetary situation.
The SMT recommended that the Commission should: (1) maintain oversight of DOE's activities in this area, through normally scheduled Commission-level meetings with DOE on its high-level waste management program, and correspondence as necessary; (2) encourage DOE to appoint a DOE staff member as LSS Project Manager whose principal responsibility is to ensure the earliest possible development and implementation of the LSS; (3) endorse the development of the Memoranda Of Understanding described in the OIG report that delineate the respective roles and responsibilities of NRC and DOE; (4) endorse staff actions toward reducing the number of relevant documents submitted to the LSS; (5) support the SMT in its efforts to ensure that the LSS meets the needs of a trial lawyer in the repository licensing proceeding and encourage DOE and other parties in this proceeding to work toward satisfying this constraint; and (6) support the development of a pilot project consistent with the one described in the report.  In a January 30, 1996, status report, the Executive Director for Operations advised the Commission that the SMT will develop an action plan addressing issues affecting the LSS program by the end of July 1996.
We endorse the recommendations contained in the SMT's report and agree with
the Commission's position. We also believe, as did most of the parties we interviewed,
that improvements in technology may have overtaken some technical aspects of
the LSS as originally conceived. However, the original reasons for developing
the LSS have not changed.
Budgetary Constraints and Legislative Changes That May Affect the LSS
Budgetary Constraints
We found that budgetary constraints have forced both NRC and DOE to make significant changes to their support of an LSS program.  Due to reductions in DOE's HLW program appropriations from the Nuclear Waste Disposal Fund (NWF) and the Defense Nuclear Waste Disposal account for fiscal year (FY) 1996, DOE officials told us that their agency will not provide any design and development support to the LSS program in FY 1996.  NRC officials told us they are also operating under significant reductions in their 1996 appropriation from the NWF.
NRC officials also noted that the rapidly changing legislative and budgetary environment in the high-level waste area has forced NRC to adopt a wait-and-see attitude toward further development of the LSS.  We understand and appreciate the difficult position NRC finds itself in as a result of budget cuts beyond its control.  Furthermore, we are encouraged by the strong, supportive position taken by the SMT in its report to the Commission and plan to continue monitoring the SMT's resolution of the LSS issue.  We believe that NRC should continue to foster a licensing process that permits the agency to make sound repository licensing decisions within a reasonable time frame based on reliable information.
Legislative Changes
Under the Nuclear Waste Policy Act of 1982, as amended, and under bills being considered in the Senate and House, NRC still must issue a final decision on the initial phase of the repository application (the construction authorization) within three years of DOE's license application submittal (with a possible one year extension).  The House bill requires DOE to submit a construction authorization application by December 31, 2001, while the Senate bill does not specify any date.  The proposed bills would not eliminate NRC's role in the licensing process.  Therefore, an LSS, or similar system, becomes increasingly important for program continuity, documenting key decisions, and streamlining the licensing process.
Proposed legislation and current budget reductions imply a period for characterization,
construction, and licensing of a repository well beyond that originally envisioned.
This increases the need for an information repository that captures historical
and decision-making documentation and the need for controlling and defining
the content of the system. However, the final form of future legislative action
is unclear at this time.
The Licensing Support System Advisory Review Panel
In addition to the issues addressed in the SMT's report, we also believe NRC should continue periodic interaction with the Licensing Support System Advisory Review Panel(2) (ARP).  The ARP was chartered in December 1989 to provide advice to (1) DOE on the fundamental issues of the design and development of the LSS and (2) the LSS Administrator at NRC on the operation and maintenance of the LSS.  The ARP was expected to be needed on a continuing basis until conclusion of NRC's hearing on the license to place waste at the repository.
The ARP has also served a valuable function in regard to NRC's credibility with the public.  We believe it can continue to be a valuable resource in the licensing process.  We also believe that failure to preserve the cooperation of the affected parties in any licensing proceeding could result in a more contentious, lengthy, and costly proceeding.
Members of the ARP told us they want an LSS to ensure that they are able to
properly represent the interests of their constituents. They also told us that
making key licensing information available to participants on an ongoing basis
is very important and critical to their ability to respond to the large volume
of documentation that has and will be generated. ARP members also said they
rely on NRC to ensure an objective evaluation of DOE's work.
Conclusions
We endorse the Commission's and the SMT's support for the LSS concept and believe
that the reasons for developing an LSS remain despite changes in technology,
funding cuts, and changes to DOE's program approach. At this time, there is
no indication that the tight licensing time frame will be changed and it is
certain that the entire repository licensing process will extend over many decades.
It is critical to capture and maintain key records and decision documents over
this period. We agree with agency representatives that NRC should continue working
toward achieving the goals of the LSS, regardless of its final form. The ARP
also remains an important part of the licensing process because it (1) provides
NRC access to the parties of a licensing proceeding and (2) allows NRC to gain
their cooperation and agreement in key issue areas. Therefore, we believe it
is important that NRC maintain the ARP relationship. Although we are making
no recommendations at this time, we will continue to monitor this area in the
future.
Objectives, Scope, and Methodology
The objective of our survey was to (1) assess progress made towards developing the Licensing Support System (LSS) and implementing recommendations made in our March 1995 report and (2) evaluate programmatic impacts that might affect the LSS as a result of budget constraints and legislation being considered by Congress.
To develop an understanding of progress made on LSS development and on the potential effects of pending legislation, we interviewed officials from the State of Nevada; Nye and Clark counties in Nevada; Inyo county in California; the Department of Energy; the University of Nevada at Las Vegas; and the Nuclear Energy Institute.  We also interviewed the following NRC personnel: the members of the Senior Management Team evaluating the LSS program, officials from the Office of Nuclear Material Safety and Safeguards, and Commissioner Rogers.  We reviewed documents and regulations pertaining to the LSS from 1986 to the present.  We also reviewed bills currently in Congress relating to High-Level Waste and the 1996 Energy and Water Development Appropriations Bill.
We conducted our work from September 1995 through January 1996 in accordance
with generally accepted Government auditing standards. We did not assess the
adequacy of any NRC internal management controls.
U.S. NRC Functional Organization Chart
Figure 1: The
U.S. NRC Functional Organization Chart
Note: The organization chart is not included in the electronic transmission
of this report.
Major Contributors to this Report
William D. McDowell Team Leader
S. Russell Irish Audit Manager
Robert W. Moody
Auditor
Glossary: Office of the Inspector General Products
Investigative
1. Investigative Report - White Cover
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. Event Inquiry - Green Cover
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3.  Management Implications Report (MIR) - Memorandum
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of problems and to avoid similar issues in the future.  Agency tracking of recommendations is not required.
Audit
4. Audit Report - Blue Cover
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. Special Evaluation Report - Burgundy Cover
A Special Evaluation Report documents the results of short-term, limited assessments.  It provides an initial, quick response to a question or issue, and data to determine whether an in-depth independent audit should be planned.  Agency tracking of recommendations is not required.
Regulatory
6. Regulatory Commentary - Brown Cover
Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations.  Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy examined, pertinent background information considered and identifies OIG concerns, observations, and objections.  Significant observations regarding action or inaction by the agency are reported in the OIG Semiannual Report to Congress.  Each report indicates whether a response is required.
Notes:
1.  OIG/95A-01, March 17, 1995
2.  The Licensing Support System Advisory Review Panel consists
of representatives from the State of Nevada, DOE, NRC, the affected units of
local government in Nevada, the National Congress of American Indians, the coalition
of national environmental groups, and the coalition of industry groups. The
NRC representative serves as Chairman of the Panel.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees